Report No. D-2007-073      March 21, 2007




          Financial Data Processed
         by the Medical Expense and
       Performance Reporting System
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CHCS                  Composite Health Care System
CRIS                  Commander’s Resource Integration System
DFAS                  Defense Accounting and Finance Service
DHMRSi                Defense Medical Human Resource System-internet
EAS-SA                Expense Assignment System Stand Alone
EAS IV                Expense Assignment System version IV
GAAP                  Generally Accepted Accounting Principles
GAO                   Government Accountability Office
HA/TMA                Assistant Secretary of Defense for Health Affairs/TRICARE
                      Management Activity
MEPRS                 Medical Expense and Performance Reporting System
MERHCF                Medicare-Eligible Retiree Health Care Fund
MTF                   Military Treatment Facility
SPMS                  Standard Personnel Management System
STANFINS              Standard Finance System
STARS-FL              Standard Accounting and Reporting System Field Level
TMA                   TRICARE Management Activity
UCAPERS               Uniform Chart of Accounts Personnel System
                                INSPECTOR GENERAL

                              DEPARTMENT OF DEFENSE

                               400 ARMY NAVY DRIVE

                          ARLINGTON, VIRGINIA 22202-4704





                                                                                March 21, 2007


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                (COMPTROLLER)/CHIEF FINANCIAL OFFICER
                            ASSISTANT SECRETARY OF DEFENSE FOR HEALTH
                             AFFAIRS
                            SURGEON GENERAL OF THE ARMY
                            SURGEON GENERAL OF THE NAVY
                            SURGEON GENERAL OF THE AIR FORCE
                            DIRECTOR, DEFENSE FINANCIAL ACCOUNTING
                             SERVICE

SUBJECT: Report on the Financial Data Processed by the Medical Expense and Performance
         Reporting System (Report No. D2007-073)


        We are providing this draft report for review and comment. We considered
management comments from the Assistant Secretary of Defense for Health Affairs, the Chief of
Staff of the Army Medical Command, the Assistant Secretary of the Navy (Manpower and
Reserve Affairs), and the Surgeon General of the Air Force when preparing the final report.

        The management comments received from the Assistant Secretary of Defense for
Health affairs were partially responsive. The management comments received from the
Surgeons General ofthe Army, Navy and the Air Force were responsive. We redirected,
revised, and renumbered the report recommendations based on the management comments
received. Specifically, we redirected a report recommendation to the Under Secretary of
Defense (Comptroller)/ChiefFinancial Officer. DoD Directive 7650.3 requires that all issues
be resolved promptly. We request that management provide the comments by April 23, 2007.

        Ifpossible, please send management comments in electronic format (Adobe Acrobat
file only) to Audcolu@dodig.mil. Copies of the management comments must contain the
actual signature of the authorizing official. We cannot accept the / Signed / symbol in place of
the actual signature. If you arrange to send classified comments electronically, they must be
sent over the SECRET Internet Protocol Router Network (SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed to me
at (614) 751-1400, ext. 211 or Mr. Mark Starinsky at (614) 751-1400, ext. 231. See
Appendix C for the report distribution. The team members are listed inside the back cover.

                                     By direction of the Deputy Inspector General for Auditing:



                                         ~~~~
                                           P   1. Granetto, C.P.A.

                                   Assistant spector General and Director

                                     Defense Financial Auditing Service

                Department of Defense Office of Inspector General
Report No. D2007-073                                                      March 21, 2007
   (Project No. D2005-D000FJ-0200.000)

                       Financial Data Processed
       by the Medical Expense and Performance Reporting System

                                  Executive Summary

Who Should Read This Report and Why? Healthcare personnel who are responsible
for administering the Military Health System should read this report. It discusses data
the Medical Expense and Performance Reporting System processes, which is used to
track and display the cost of healthcare provided by Military Departments’ military
treatment facilities.

Background. DoD military treatment facilities use the Medical Expense and
Performance Reporting System for recording health care costs. The Medical Expense
and Performance Reporting System contains expense data for all Military Department
medical costs and corresponding personnel and workload data. The Medical Expense
and Performance Reporting System contained approximately $15.6 billion in costs that
were incurred by 70 inpatient facilities and 826 clinics during FY 2005. The audit
focused on the adequacy of the financial data processed by the Medical Expense and
Performance Reporting System. Also, the audit included an analysis of data provided to
the Medical Expense and Performance Reporting System by systems owned by the
Military Departments. We visited one military treatment facility in each of the Military
Departments.

Results. The treatment facilities we visited could not provide sufficient evidence that the
Medical Expense and Performance Reporting System contained data that were accurate
and complete. None of the facilities followed the generally accepted accounting
principles needed to capture, record, and verify the accuracy of the expenses that those
facilities incurred in FY 2005. The military treatment facilities used multiple accounting
and personnel systems to document the cost of labor, supplies, and materials; used cash-
based accounting procedures instead of accrual-based accounting procedures to record
costs; did not have adequate cut-off procedures for capturing and reporting expenses; did
not prepare accounting reports, including a trial balance that would show aggregate costs;
and did not document processes that would permit reconciliation of expense data to
accounting systems and financial data. Finally, the military treatment facilities were not
able to produce source documents to fully support hours worked.
The Office of the Assistant Secretary of Defense for Health Affairs and the Surgeons
General were aware of these weaknesses and developed ongoing initiatives to improve
the data in the Medical Expense and Performance Reporting System. However, further
actions were needed. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer needed to issue DoD Financial Management Regulation and guidance addressing
military treatment facilities accounting and reporting. The Assistant Secretary of
Defense for Health Affairs and the Military Departments Surgeons General needed to
implement additional and improved controls to ensure that military treatment facilities
follow the generally accepted accounting principles needed to capture, record, and verify
the accuracy of the expenses that those facilities incurred. Until the weaknesses are fully
corrected, the Assistant Secretary of Defense for Health Affairs and the Military
Departments Surgeons General will not be able to assert that the underlying cost data are
reliable, making it difficult to achieve an unqualified opinion for the Medicare-eligible
Retiree Health Care Fund financial statements. (See the Finding section for the detailed
recommendations.)

Management Comments and Audit Response. The Assistant Secretary of Defense for
Health Affairs did not concur with the finding and stated that the report misrepresented
the purpose of the Medical Expense and Performance Reporting System. He also did not
concur that Health Affairs had a material weakness. He stated that the system provides
detailed uniform performance indicators, common expense classification by work
center/cost center, uniform reporting of personnel utilization data by work centers, and a
standardized labor cost assignment methodology. He stated that the Medical Expense
and Performance Reporting System was not designed to support financial accounting,
financial reporting, or patient-level accounting. The Chief of Staff of the Army Medical
Command added that DoD did not design the Medical Expense and Performance
Reporting System to perform accrual accounting. He stated that it is a cost accounting
system based on cash disbursement as the expense factor. The Assistant Secretary of the
Navy (Manpower and Reserve Affairs) concurred with the finding except in the area of
civilian leave and military pay. Specifically, the Assistant Secretary believed that the
Navy is following applicable accounting policies related to accruing civilian leave and
calculating military pay.
We agree with the Assistant Secretary of Defense for Health Affairs and the Chief of
Staff of the Army Medical Command comments about the design of the Medical Expense
and Performance Reporting System. The system was not designed to support financial
accounting, financial reporting on an accrual basis, or patient-level accounting.
However, the accounting information contained in it forms the basis of the direct care
costs that Health Affairs reports on DoD health-care related financial statements. For
that reason, Health Affairs needs to ensure that detailed records that support the Medical
Expense and Performance Reporting System cost information are readily available.
Additionally, Health Affairs needs to ensure that health care financial information is
reported on an accrual basis of accounting and that proper cut-off procedures exist. We
disagree with the Assistant Secretary of the Navy (Manpower and Reserve Affairs)
comments regarding civilian leave expenses and calculating military pay. The DoD
Financial Management Regulation does not preclude the Navy from expensing annual
leave in the accounting period an employee earns it or from accruing leave in future
accounting periods. Additionally, the Navy military treatment facility that we visited
could not demonstrate that the composite military pay expense was representative of the
amount paid to the military treatment facility employees.

Based on comments from the Assistant Secretary of Defense for Health Affairs, we
redirected some recommendations to the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. We request that Under Secretary of Defense (Comptroller)/Chief
Financial Officer provide comments by April 23, 2007. Also, we request that the
Assistant Secretary of the Navy (Manpower and Reserve Affairs) and the Air Force
Surgeon General provide additional comments on this report by April 23, 2007. See the
Finding section of the report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                      i

Background                                                            1

Objectives                                                            3

Managers’ Internal Control Program                                    3

Finding
     Adequacy of Military Treatment Facilities Cost Data              4

Appendixes
     A. Scope and Methodology                                         18
     B. Prior Coverage                                                20
     C. Report Distribution                                           24

Management Comments
     Office of Assistant Secretary of Defense for Health Affairs      27
     Army Medical Command                                             32
     Assistant Secretary of the Navy (Manpower and Reserve Affairs)   35
     Surgeon General of the Air Force                                 40
Background
    The Military Health System falls under the purview of the Assistant Secretary of
    Defense for Health Affairs and includes the TRICARE Management Activity and
    the Military Departments’ Surgeons General. These organizations oversee the
    delivery of DoD healthcare.

    Responsibility for establishing policy, procedures, and standards that govern DoD
    medical programs rests with the Assistant Secretary of Defense for Health
    Affairs. He is responsible for executing the DoD medical mission. The DoD
    medical mission is to provide medical services and support to members of the
    Armed Forces, their dependents, and others entitled to DoD medical care.

    TRICARE Management Activity (TMA) is a DoD field activity operating under
    the authority, direction, and control of Assistant Secretary of Defense for Health
    Affairs. TMA manages and executes the Defense Health Program appropriation
    and the DoD Unified Medical Program and supports the Military Departments in
    the implementation of the TRICARE Program. The TRICARE program consists
    of managed health care for active duty and retired members of the uniformed
    services, their families, and survivors. The TRICARE program includes the in-
    house health care resources of the Army, Navy, and Air Force military treatment
    facilities (MTFs) and a private-care network of civilian health care professionals.
    The TRICARE program provides medical care to about 9.2 million eligible
    beneficiaries.

    The MTFs used a cost allocation and tracking system, the Medical Expense and
    Performance Reporting System (MEPRS), to capture and report approximately
    $15.6 billion in costs that were incurred by 70 inpatient facilities and 826 clinics
    during FY 2005.

    The primary objective of MEPRS is to standardize the cost data that are used in
    managing the DoD Military Health System. The MTFs transfer these data from
    their Military Departments’ financial systems into MEPRS along with personnel
    and workload data. MEPRS includes a hierarchy of data by which all of the
    Military Departments’ medical costs and corresponding personnel and workload
    data are collected through an assignment system. This expense assignment
    system in MEPRS is called the Expense Allocation System version IV (EAS IV).
    MTFs enter workload, financial, and personnel data into a local EAS IV server,
    which then allocates the costs and integrates all the data monthly. Once processed
    at the MTF level, these data are transmitted to the EAS IV Repository. The
    exhibit on the following page illustrates the flow of data, which is then described
    in more detail.




                                          1
The Military Department accounting and personnel systems used to populate
MEPRS with data via the EAS IV include the TMA Composite Health Care
System (CHCS), the Army Standard Finance System (STANFINS), the Navy
Standardized Accounting and Reporting System-Field Level (STARS-FL), the
Air Force Commander’s Resource Integration System (CRIS), the Army Uniform
Chart of Accounts–Personnel System (UCAPERS), the Navy Standard Personnel
Management System (SPMS), the Air Force Expense Assignment System–Stand
Alone (EAS-SA), and the Defense Medical Human Resource System-internet
(DHMRSi).

One of the key financial processes that the MEPRS data are used to support is the
Medicare-eligible Retiree Health Care Fund (MERHCF). The MERHCF was
established to accumulate sufficient funds to finance, on an actuarially sound
basis, liabilities of DoD under uniformed Services health care programs for these
specific Medicare-eligible beneficiaries. MEPRS data are included in the
calculations used to determine the future year funding requirements for the
MERHCF.

To help estimate the future-year cost of the MERHCF, TMA developed
estimation techniques to arrive at the cost of the care provided to the Medicare-
Eligible retirees. Approximately 6 months after the fiscal year end, TMA
performs a “level-of-effort” process, which results in an estimate of the prior year
MTFs cost and workload by patient groups. The process is used because the
MTFs do not have a capability to track patient-level cost accounting data. The
MTF costs are allocated to the patient groups based on the medical coding of each
of the inpatient and outpatient encounters. The results of the level-of-effort
process are used to determine future year payments by the MERHCF to the MTFs
for care to be provided to the Medicare-eligible retiree beneficiaries. The
accuracy of the level-of-effort calculations depends on MEPRS and related data
systems providing accurate, timely, and complete cost and workload data.




                                     2
Objectives
           The objective of the audit was to determine the adequacy of management controls
           over the military treatment facility financial data processed by the Medical
           Expense and Performance Reporting System. We reviewed the management
           control program as it relates to the overall audit objective and compliance with
           applicable laws and regulations. See Appendix A for a discussion of the scope
           and methodology, and Appendix B for prior coverage related to the objectives.


Managers’ Internal Control Program
           DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
           DoD Instruction 5010.40, “Management Control Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. 1
           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of the Office of the Assistant Secretary of Defense for Health
           Affairs/TRICARE Management Activity (HA/TMA) and the Military Department
           Surgeons General management controls over the financial data processed by the
           Medical Expense and Performance Reporting System. We reviewed
           management’s self-evaluation applicable to those controls.

           Adequacy of Management Controls. We identified material management
           control weaknesses for HA/TMA and the Military Department Surgeons General
           as defined by DoD Instruction 5010.40. HA/TMA and the Military Department
           Surgeons General management controls over the MEPRS processes were not
           adequate to ensure that the resulting data used for resource management were
           accurate and complete. Recommendations 1.a. and b. and 2.a.-d., if implemented,
           will improve the accuracy and completeness of data resulting from the MEPRS
           process. A copy of the report will be provided to the senior official responsible
           for management controls in HA/TMA, and to the Surgeons General of the Army,
           Navy, and Air Force.

           Adequacy of Management’s Self-Evaluation. The HA/TMA and the Military
           Department Surgeons General officials did not identify the Medical Expense and
           Performance Reporting System process or the related feeder systems as an
           assessable unit and, therefore, did not identify or report the material management
           control weaknesses identified by the audit.




1
    As of January 2006, DoD Directive 5010.38 “Management Control Program,” August 26, 1996 has been
    canceled and DoD Instruction 5010.40 “Management Control (MC) Program Procedures,” August 28,
    1996, was revised and renamed “Managers’ Internal Control (MIC) Program Procedures. However, these
    criteria were applicable at the time of the OIG’s audit. Further, the cancellation and revision had no
    impact on the audit findings.



                                                     3
            Adequacy of Military Treatment
            Facilities Cost Data
            The MTFs we visited could not provide sufficient evidence that the
            Medical Expense Performance and Reporting System contained data that
            were accurate and complete. This occurred because none of the facilities
            followed the generally accepted accounting principles (GAAP) needed to
            capture, record, and verify the accuracy of the $1.4 billion of expenses
            that those facilities incurred in FY 2005. Specifically, the MTFs used
            multiple accounting and personnel systems to document the cost of labor,
            supplies, and materials; used cash-based accounting procedures instead of
            accrual-based accounting procedures to record costs; did not have
            adequate cut-off procedures for capturing and reporting expenses; did not
            prepare accounting reports, including a trial balance that would show
            aggregate costs; and did not document processes that would permit
            reconciliation of expense data to accounting systems and financial data.
            Additionally, the MTFs were not able to produce source documents to
            fully support hours worked. HA/TMA and the Surgeons General were
            aware of these weaknesses and have ongoing initiatives to improve the
            data entering the Medical Expense Performance and Reporting System.
            Until the weaknesses are fully corrected, the HA/TMA and the Military
            Departments Surgeons General will not be able to assert that the
            underlying cost data are reliable, making it difficult to achieve an
            unqualified opinion for the Medicare-Eligible Retiree Health Care Fund
            financial statements.


Military Treatment Facilities Direct Care Data Flow
     The cost data from the MTFs, termed direct care within DoD, resides in multiple
     databases and systems. Each MTF inputs electronic workload, financial and
     personnel files, and other manually entered data into the Expense Allocation
     System (EAS). The data entry facilitates the MEPRS process. The individual
     patient (inpatient and outpatient) workload data are provided by the Composite
     Health Care System (CHCS). The financial data used in the MEPRS are derived
     from MTF budgetary transactions recorded in Military Department-specific
     financial systems and processed by the Defense Finance and Accounting Service.
     The personnel data are maintained in Military Department-specific systems.
     Additionally, some MTFs have converted to a new DoD-wide system called the
     Defense Medical Human Resource System-internet. Each MTF has a local
     EAS IV server where the MEPRS data reside. The MTFs use local servers to
     reconcile the workload, financial, and personnel data. The MTFs subsequently
     transmit the reconciled data to a central EAS IV repository. Data transmitted to
     the EAS IV central repository go through additional electronic data checks before
     they are maintained in the repository.




                                         4
Assessing Military Treatment Facility Managerial and
  Financial Controls
     We visited three MTFs: Brooke Army Medical Center, Navy Medical Center San
     Diego, and David Grant Air Force Medical Center to assess the management
     controls over the financial data processed by the Medical Expense and
     Performance Reporting System. The MTFs visited incurred $1.4 billion of
     expenses and there were approximately 11,830 full time personnel equivalents in
     FY 2005. We sampled 116 transactions at the three MTFs. Our observations
     about the processes used to populate the MEPRS with data and the results of our
     tests of transactions were as follows.

     Use of Appropriate Accounting, Measurement, and Recognition Methods.
     Records at the MTFs and discussions with cognizant personnel showed that none
     of the facilities followed the GAAP needed to capture, record, and verify the
     accuracy of the $1.4 billion of expenses that MEPRS showed those facilities
     incurred in FY 2005.
             Standardized Accounting Practices. HA/TMA and the Military
     Department Surgeons General had not implemented standard business rules and
     standard accounting methods at the MTFs. The lack of standardization of the
     business rules impaired the financial and managerial uses of the data from each
     location. Each of the three MTFs used a different accounting system and
     different personnel systems for providing data to MEPRS. The unique accounting
     systems were not compliant with the OMB guidance (OMB Circular A-127) and
     there were multiple personnel systems being used to capture personnel data.
     Specifically, the Army used the Uniform Chart of Accounts–Personnel System,
     the Navy used the Standard Personnel Management System, and the Air Force
     used the Expense Assignment System–Stand Alone. The inconsistency among
     the Military Departments’ systems made it difficult to document processes,
     develop audit tests, and develop comparisons between activities audited.

             Accrual-basis of Accounting. In addition to a lack of standardization of
     feeder systems, the MTFs did not follow the generally accepted accrual basis of
     accounting. Instead they used a budget execution (cash) basis of accounting. As
     a result, MTF expenses were not necessarily recognized in the proper accounting
     period. Under the accrual basis of accounting, an expense is recognized,
     measured, and recorded in the time period when incurred, regardless of when the
     cash outflow occurs. The use of budget execution-based accounting data
     increased the risk that the MEPRS monthly expense data were incomplete or
     posted to the incorrect month; that the operating materials and supplies were
     expensed when paid rather than when used; and that the annual leave expense was
     not properly recorded.

     We observed specific departures from accrual-based accounting, particularly in
     the process of accounting for Operating Materials and Supplies (OM&S), contract
     labor, and annual leave.

     In general, the MTFs did not maintain an account balance for OM&S. Under
     accrual-based accounting OM&S should be treated as an asset and expensed


                                        5
when issued to the end user (such as a patient or clinic within the facility).
Specifically, Statement of Federal Financial Accounting Standards No. 3,
“Accounting for Inventory and Related Property,” requires that OM&S be
recorded as an asset on the financial statements and recorded as an expense only
after the materials and supplies are issued to the end user. The MTFs were not
complying with this standard and this departure could cause the expenses in the
financial system and MEPRS to be recorded in the wrong month.

Additionally, MTF accounting of contract labor cost was not in compliance with
GAAP in that the MTFs did not recognize the cost of the contract labor in the
period in which the contract labor was performed. Rather, the labor costs were
posted in MEPRS after the Defense Finance and Accounting Service (DFAS) (or
designated payment office) contract payment data (expenditure) were imported
into MEPRS by the MTF. Depending on the timing of the contractor’s
submission of the invoice, the generated payment, and subsequent MTF
processing of the payment file into MEPRS, the transmission of the data into the
EAS IV repository could take months.

MTF recording of annual leave also did not adhere to accrual accounting
principles. Specifically, MTFs expensed annual leave when the leave was taken,
not when the leave was earned, as required by Statement of Financial Accounting
Standards No. 43. The standards require that the expense and the associated
liability for the annual leave be recorded when the benefit is earned, not when the
leave is taken. The potential effect of this is the mismatching of expenses to the
wrong period in MEPRS. This noncompliance with GAAP created a risk that the
MTFs may not be recording the full cost of civilian personnel.

        Accounting Period Cut-Off Procedures. MTF cut-off procedures were
not in compliance with generally accepted accounting principles. The MTFs we
visited did not have compliant cut-off procedures for capturing and reporting
personnel data in EAS IV. Specifically, the MTFs lacked cut-off procedures as of
a fixed point in time, such as at the end of the month, and the data could be
retroactively changed. Statement of Federal Financial Accounting Concepts
No. 1, “Objectives of Federal Financial Reporting,” September 2, 1993, states that
costs that apply to an entity’s operations for the current accounting period are
recognized as expenses of that period.

At each of the three MTFs, we reviewed monthly procedures to capture and
record personnel data (timekeeping and associated pay) and the controls to ensure
that data were captured in the proper period. Although each of the MTFs we
visited had procedures for capturing and reporting personnel data on a monthly
basis, internal controls related to manual operations and correcting discrepancies
were not adequate. Specifically, a prior month’s EAS IV data could be
overwritten through multiple transmissions of the data when any corrections were
needed. Determining what existed as of a particular point in time was difficult
because it required backing out several transmissions of data to EAS IV.

A particular problem for the Navy was that the monthly cut-off procedures may
not be consistent for all MTFs. For example, Naval Medical Center San Diego
representatives had noted that some timekeepers were submitting time sheets that
used different 30-day time periods than other MTFs, sometimes ending 5 days
prior to the end of the month in order to meet the reporting requirements needed


                                     6
for the monthly EAS IV transmissions. Typically, an auditor would expect to
review a file that is recorded “as of” the end of an accounting period (month or
quarter) in order to perform tests to determine whether a period’s costs were
reported in the proper period.

        Availability of Accounting Reports. The individual MTFs in each
Military Department did not prepare accounting reports that financial statement
auditors could use to assess whether the MTF had used sound financial
management. For example, the MTFs did not have typical accounting reports
such as consolidated trial balances, statements of financial position, or statements
of change in financial position. The Brooke Army Medical Center, Naval
Medical Center San Diego, and David Grant Air Force Medical Center did not
maintain consolidated accounting reports for all sources of funds that were
organized by general ledger accounts. Although each MTF maintained DFAS
accounting reports that provided the status of obligations, the DFAS reports were
not in the format of a typical trial balance accounting report.

The Naval Medical Center San Diego did maintain a management tool that
provided additional financial data for reporting. Specifically, the Navy MTF in
San Diego had access to a web-based system called the Summarized Medical
Analysis Resource Tool, which the MTF could use for financial visibility over
total expenses, regardless of the appropriation (funding source). However, the
Summarized Medical Analysis Resource Tool data were not in the format of a
typical general ledger-based accounting report, and it was unclear whether accrual
accounting principles were used.

The three MTFs relied on accounting reports provided by DFAS that were based
on the execution of appropriations reports rather than MTF-level financial reports
that would be commonplace in public accounting. Due to the absence of general
ledger-based accounting reports, the calculation of total operating costs of each
MTF was very time consuming and difficult, especially when the MTF funding
came from multiple appropriations. The availability of general ledger-based
accounting reports would allow financial auditors to trace costs and other data
back to the supporting data.

Documentation of Processes and Transactions. The Surgeons General did not
document the processes in place or the associated controls over transactions to
ensure that the aggregate MEPRS expense data were reconcilable to Military
Department accounting systems and financial data. In addition, MTFs were not
always able to support the labor hours worked and the labor cost to source
documents.

        Controls Over Processes. Office of Management and Budget Circular A-
123, “Management’s Responsibility for Internal Control,” December 21, 2004,
requires activities to assess and document internal controls over financial
management. It requires that a control process be in place that ensures
management promptly records and properly accounts for transactions so that
reliable financial reports are prepared. In addition, management must ensure that
documentation for transactions and management controls are clear and readily
available for examination. The Surgeons General and MTFs we visited did not
use processes and controls that fully complied with Office of Management and
Budget Circular A-123 and generally accepted accounting principles.


                                     7
DoD Instruction 6040.40, “Military Health System Data Quality Management
Control Procedures,” November 26, 2002, requires each MTF to establish a
program to ensure data accuracy, completeness, and timeliness and to ensure
uniformity and standardization of data across the Military Health System.
Additionally, The MTFs were required by DoD Manual 6010.13-M, “Medical
Expense and Performance Reporting System for Fixed Military Medical and
Dental Treatment Facilities,” November 21, 2000, to reconcile the expenses in
MEPRS to official records. At each of the MTFs we visited, we confirmed that a
financial reconciliation occurred with expenditure data. However, there were
differences among the MTFs in the supporting documentation available and the
internal controls over the reconciliation processes. We attributed the weaknesses
to unclear guidance.

DoD Manual 6010.13-M needed improvement to included better information on
financial reconciliations. Specifically, the guidance did not provide adequate
direction for MTFs on performing a full financial reconciliation, on what
documentation and controls should be implemented to ensure consistency across
all MTFs, or, in general, on what constitutes acceptable compliance with
generally accepted accounting principles.

       Controls Over Labor Transactions. We performed control tests of
personnel data (hours and cost) and concluded that the MTFs did not have
adequate support for all 116 of the labor transactions selected during our review.
The results of our sample are as follows:

       •   Civilian Labor. We reviewed 18 civilian records. We confirmed that
           the civilian pay expense reported by DFAS was reflected in MEPRS
           feeder systems for the Army and Navy MTFs. However, the Air Force
           MTF was unable to provide an explanation as to how they determined
           the civilian pay expense entered into their feeder system.

       •   Military Labor. For the Army and Navy MTFs, we reviewed
           16 military personnel records and noted that in most cases, the MTFs
           used current DoD military composite pay rates (not actual pay) to
           apply to a standard work schedule. The Air Force did not use the
           published DoD monthly composite rate. The Air Force MTF was
           unable to provide an explanation for how the military labor expense
           was calculated. The MTFs did not have procedures to reconcile the
           composite labor expenses with the actual pay. The potential for
           military pay variances (composite versus actual) created a risk that the
           MTFs may not be recording the full costs of military personnel.

       •   Contracted Labor. We reviewed 19 contracted personnel records and
           determined that the MTFs did not always have documentation
           supporting the contracted employee’s hours and the associated
           expenses. The MTFs did not always maintain adequate supporting
           documentation for the hours or dollar values billed and entered into
           EAS IV.




                                     8
Military Health System Initiatives
     DoD has ongoing initiatives to improve the Military Health System financial
     accounting processes and to resolve known weaknesses. The initiatives will
     affect the information provided to MEPRS. The improvements to financial
     operations include efforts described below.

     Medical Expense and Performance Reporting System Improvement Plan.
     HA/TMA and the Surgeons General established a working group called the
     MEPRS Management Improvement Group. The MEPRS Management
     Improvement Group facilitates communication of MEPRS-related issues and the
     implementation of MEPRS improvement initiatives, and it fosters greater
     awareness of accounting requirements.

     Workload Initiatives
     Composite Health Care System II. DoD was implementing a new hospital
     management data system throughout the Military Health System that will produce
     better data for MEPRS. One of the functions of the new Composite Health Care
     System II is to replace hard copy patient records with electronic patient records.
     Another function of the system is to have the electronic records available
     worldwide, which may resolve weaknesses related to the availability of medical
     records and improve medical record coding accuracy.

            Coding. HA/TMA and the Surgeons General have taken multiple actions
     to improve the quality of medical records coding.

                     Management Reports. The MTFs prepare monthly data quality
     management reports for HA/TMA, and an external coding contractor performs
     audits of the accuracy of the medical records coding. In addition, HA/TMA plans
     to provide MTFs with software called the “Coding Compliance Editor” in an
     effort to improve coding accuracy.

                   Coding of Medical Records. HA/TMA has issued policies
     designed to improve the accuracy of medical records coding and has taken a
     number of other actions. These actions include:
        •   establishing a coding compliance plan within each MTF,
        •   incorporating external auditing as part of the compliance plan,
        •   ensuring that all MTFs have the appropriate coding resources available
            and that tools are available to assist in the correct coding of encounters
            (e.g., coding assist software),
        •   ensuring that certified coders are available to assist in the correct coding,
            and

        •   ensuring that coding instructors and auditors are current in coding
            terminology and adhere to DoD coding policy.



                                          9
    Financial Data Initiatives
    The Financial Improvement and Audit Readiness Plan was established with the
    objective of achieving sound financial management by improving internal
    controls, resolving material weaknesses, correcting financial management
    deficiencies, and improving the ability of DoD to excel at fiscal stewardship.
    Healthcare is one of the focus areas of the plan. The MERHCF Financial
    Improvement and Audit Readiness Plan focuses on improving medical coding to
    improve cost management. The goals and capabilities supported by the initiative
    include managing military health services, managing financial assets and
    liabilities, and improving financial reporting. The increased focus on these areas
    should lead to improvements in financial data provided to MEPRS.

    Personnel Data Initiatives
    The Defense Medical Human Resource System-internet is a human resource
    management system that will centralize medical personnel information for Army,
    Navy, and Air Force. It is being implemented across the Department in hospitals,
    clinics, and dental facilities. The system should improve the accuracy of
    personnel/workload information provided to MEPRS.

    Other Initiatives
    In 2005, HA/TMA contracted with a consulting firm, Bradson Corporation, for
    assistance in improving Military Health System financial statements. Bradson
    was to assess TMA transaction processes, review systems interfaces and
    capacities, and evaluate audit trails and adjustments to establish a baseline of
    financial reporting performance and capabilities. In addition, Bradson is tasked
    with providing an assessment of TMA, MERHCF, and Defense Health Program
    financial statements.


Use of MEPRS Data for Management Decisions and Preparing
  Financial Statements
    Managers throughout the military health care system use MEPRS direct care data
    to make policy decisions, evaluate program effectiveness, and track costs.
    Additionally, these data eventually form the basis of the direct care portion of the
    healthcare liabilities reported on the DoD Consolidated Financial Statement and
    the Medicare-Eligible Retiree Health Care Fund. Auditors have identified
    weaknesses with the underlying MEPRS data (see Appendix B). These
    weaknesses increase the risk that healthcare managers are relying on inaccurate
    data, that discrepancies exist between summary and source documentation, and
    that elements of financial statements derived from MEPRS data are not fully
    supportable.

    Asserting on the Reliability of MEPRS Data. Until critical weaknesses
    associated with MEPRS data are addressed and fully corrected, it will be difficult
    for HA/TMA to assert that the data are reliable and audit-ready. Current business
    rules established by the Office of the Under Secretary of Defense


                                         10
(Comptroller)/Chief Financial Officer require that reporting entities prepare
assertion packages that demonstrate to management and auditors that financial
records are audit-ready. However, the MERHCF financial statements, which are
based on MEPRS data, have been prepared and audited since FY 2003 without
meeting this requirement. This occurred because the current business rules had
not been established when the decision was made to seek an opinion on the
MERHCF financial statements. The DoD Comptroller currently requires that
assertion packages include documentation of processes, accounting control, and
testing of transactions and balances, and that an independent auditor perform an
assessment of them. These requirements provide assurance that financial data are
reliable and ready for audit. HA/TMA was attempting to fully consider known
system weaknesses during the assertion process for the Service Medical Activity
financial statements.

Risk Associated with Use of MEPRS Data. Due to the weaknesses associated
with MEPRS data, there is a risk that healthcare managers are relying on
inaccurate data and that discrepancies exist between summary and source
documentation. Presently, there are few assurances that the MTF budgetary data
and the MEPRS managerial data are comparable because the systems and
processes are not integrated or fully reconciled with available supporting
documentation. As a result, weaknesses such as differences between the financial
data processed into MEPRS/EAS IV and data recorded in the Military
Department financial systems can occur.

Weaknesses in the accuracy and completeness of MTF cost data can also impair a
manager’s ability to evaluate alternate approaches to providing care to military
beneficiaries. For example, MTF commanders regularly need reliable data to
decide when to provide care at the MTF and when to seek private sector
alternatives.

A risk also exists that inaccurate data will be used to calculate DoD healthcare
liabilities. The total liability is currently stated at about $833.9 billion. These
liability amounts are significant and represent a social commitment that the U.S.
Government has made to military personnel. A seemingly small increase of
1 percent in direct care costs can result in approximately $1 billion of additional
MERHCF liability. Therefore, efforts should continue to be made to improve the
accuracy of the current direct care costs in order to ensure the accuracy of the
direct care portion of the liability.

Achieving an Unqualified Audit Opinion on Financial Statements. Until
Health Affairs, TMA, and the Military Department Surgeons General correct the
weaknesses in the direct care managerial and financial accounting process,
achieving unqualified audit opinions on healthcare financial statements that rely
on MEPRS data will be difficult. The prerequisites for auditable financial
statements include maintaining data integrity from the time the care is provided
until the financial statements are prepared, complying with relevant accounting
standards, and establishing comparability between managerial and financial data.
Correcting the weaknesses will substantially improve HA/TMA and the Military
Departments’ ability to assert that the direct care data are accurate and meet
Federal and DoD reporting requirements.




                                    11
Management Comments on the Finding and Audit Response
    We received management comments on the finding from the Assistant Secretary
    of Defense for Health Affairs, the Chief of Staff of the Army Medical Command,
    and the Assistant Secretary of the Navy (Manpower and Reserve Affairs).

    Assistant Secretary of Defense for Health Affairs Comments. The Assistant
    Secretary of Defense for Health Affairs nonconcurred with the finding and
    conclusions in the draft report and commented that the report misrepresented the
    purpose of MEPRS. He also nonconcurred that the Assistant Secretary of
    Defense for Health Affairs/TMA had a material weakness. He stated that MEPRS
    provides detailed uniform performance indicators, common expense classification
    by work center/cost center, uniform reporting of personnel utilization data by
    work centers, and a standardized labor cost assignment methodology. He stated
    that MEPRS was not designed to support financial accounting, financial
    reporting, or patient-level accounting.

    Audit Response. We agree that MEPRS was not designed to support financial
    accounting, financial reporting, and patient-level accounting. However, the
    accounting information contained in MEPRS forms the basis of the direct care
    costs that Health Affairs reports on DoD health care-related financial statements.
    Health Affairs needs to ensure that compensating controls are fully implemented
    so that the detailed records that support MEPRS cost information are readily
    available. Additional controls are needed to ensure that health care financial
    information is reported on an accrual basis of accounting and that proper cut-off
    procedures exist. In addition, health care managers must be able to demonstrate
    that the detailed source records support subsequent summary records and the
    financial statements. Until the needed corrections are made, we believe that a
    material weakness exists.

    Army Medical Command Comments. The Chief of Staff of the Army Medical
    Command emphasized that DoD did not design MEPRS to perform accrual
    accounting. He stated that MEPRS is a cost accounting system based on cash
    disbursement as the expense factor. He stated that MEPRS does not prepare or
    certify the official financial statements. He added that the Army Medical
    Command complies with all established DFAS accounting procedures.
    Audit Response. We agree that MEPRS was not designed to perform accrual
    accounting and represents a cash-basis system of accounting. However, accrual
    accounting is the established basis of accounting for Federal reporting entities.
    To ensure compliance, Federal entities need to establish procedures to report
    financial data under accrual accounting conventions, even when the financial
    systems only maintain cash basis information.

    Also, while MEPRS does not prepare or certify the official financial statements,
    accurate MTF cost data are needed to compute the MERHCF and Service
    Medical Activity liability amounts reported on the DoD Consolidated Financial
    Statements. The scope of our audit did not include tests of whether the Army
    Medical Command complied with all DFAS accounting procedures.




                                        12
    Assistant Secretary of the Navy Comments. The Assistant Secretary of the
    Navy (Manpower and Reserve Affairs) concurred with the finding except in the
    area of the civilian leave and military pay. He stated that the Navy is following
    applicable accounting policies related to accruing civilian leave and calculating
    military pay and suggested that the issues be referred to the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer for review and assessment. He
    also stated that the weaknesses identified related to business process issues were
    attributed to insufficient system capabilities. He stated that ongoing efforts with
    the Business Enterprise Architecture and Standard Financial Information
    Structure will help correct the deficiencies.

    Audit Response. While we understand that DoD did not design MEPRS with the
    necessary capabilities required for accrual accounting and GAAP-compliant
    financial reporting, we disagree with the Assistant Secretary’s comments
    regarding civilian leave expenses. Volume 8 of the DoD Financial Management
    Regulation does not preclude the Navy from expensing annual leave in the
    accounting period an employee earns it. In addition, Navy reporting of leave
    expense would not prevent the Navy from accruing leave in future accounting
    periods. We disagree that this issue should be referred to the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer.

    We also disagree with the Assistant Secretary’s comments about calculating
    military pay. The Navy MTF that we visited could not demonstrate that the
    composite military pay expense was representative of the amount paid to the MTF
    employees. Without this information, it would be premature to recommend a
    change to DoD policy to use composite pay rates for reimbursable operations.
    We do not agree that this issue should be referred to the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer until more information is obtained.


Recommendations, Management Comments, and Audit
  Response
    Redirected, revised, and renumbered recommendations. We redirected,
    revised, and renumbered the draft report recommendations based on management
    comments received. Specifically, we redirected draft report recommendations
    1.a.1 and 1.a.2 to the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer. We also revised these recommendations. We renumbered draft report
    recommendations 1.a.1. and 1.a.2. to 1.a and 1.b., respectively. Additionally, we
    renumbered draft report recommendation 1.b., which discusses the revision of
    DoD Manual 6010.13 M, to recommendation 2. Lastly, we renumbered draft
    report recommendation 2 to recommendation 3.


Recommendations
    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer work with the Assistant Secretary of Defense for Health Affairs
    to:


                                         13
        a. Issue DoD Financial Management Regulations covering the financial
accounting operations of the Department’s medical and dental programs at the
military treatment facilities. Specifically, develop regulations that detail the
appropriate accounting, measurement, and recognition methods for the data used
in the MEPRS allocation process at the military treatment facilities, and

        b. Issue guidance to ensure that the Business Enterprise Architecture and
Standard Financial Information Structure efforts support financial statement
reports and trial balances at the military treatment facility level.

Assistant Secretary of Defense for Health Affairs Comments. The Assistant
Secretary concurred with the recommendations. The Assistant Secretary
commented that the responsibility for establishing financial statement reporting
requirements rests with the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. The Assistant Secretary agreed that the appropriate accounting,
measurement, and recognition methods for the data used in the MEPRS allocation
process at the military treatment facilities should be specified.

Assistant Secretary of the Navy Comments. The Assistant Secretary of the
Navy (Manpower and Reserve Affairs) concurred with recommendation 1.a. and
stated that the new DoD Financial Management Regulation chapter should be
developed in tandem with the planned implementation of the future target
accounting systems. Furthermore, he offered support to the Assistant Secretary of
Defense for Health Affairs in the development of an expanded financial
management regulation for medical operations. The Surgeon General stated that
the Defense Health Program medical community has been actively involved in the
Business Enterprise Architecture and Standard Financial Information Structure
efforts.

Audit response. We redirected the draft report recommendation to the Under
Secretary of Defense (Comptroller)/Chief Financial Officer. We revised the
recommendation based on management comments about the Business Enterprise
Architecture and Standard Financial Information Structure.

2. We recommend that the Assistant Secretary of Defense for Health Affairs
revise the DoD Manual 6010.13 M to ensure that full costs are captured and
reported consistently across the Military Health System in accordance with
Federal GAAP. The manual should specify compliant accounting practices to
record military treatment facility data for MEPRS-related financial transactions
including consistent cut-off procedures and establishment of accrual processes
where necessary.

Assistant Secretary of Defense for Health Affairs Comments. The Assistant
Secretary of Defense for Health Affairs concurred with the recommendation and
planned to revise the guidance to capture full costs, implement cut-offs, and
establish accrual procedures.

Assistant Secretary of the Navy Comments. The Assistant Secretary of the
Navy concurred with the recommendation and offered to assist with the revision.

3. We recommend that the Surgeons General of the Army, Navy, and Air Force:



                                    14
        a. Establish a military treatment facility MEPRS monthly reconciliation
policy so that: all data used in the MEPRS allocation process are reconciled to
source records; any differences are researched, corrected, and supported; and
supporting documentation is readily available.

Army Medical Command Comments. The Chief of Staff of the Army Medical
Command concurred and stated that the General Fund Enterprise Business
System should be implemented as early as the third quarter of FY 2008. The
system will have the capability to reconcile from the transaction event to the
posting of the transaction to the general ledger.

Assistant Secretary of the Navy Comments. The Assistant Secretary concurred
and indicated that a reconciliation will be a part of future financial management
initiatives.

Air Force Surgeon General Comments. The Surgeon General of the Air Force
concurred with the recommendation and stated that they are revising Air Force
Instruction 41-102, “Air Force Medical Expense and Reporting System.”

Audit response. The management comments met the intent of the
recommendation.

       b. In coordination with the Service Medical Activities Financial
Improvement and Readiness Group, report all known military treatment facility
departures from GAAP.

Army Medical Command Comments. The Chief of Staff of the Army Medical
Command concurred and stated that the Army Medical Command is working with
the TRICARE Management Activity to identify accounting weaknesses and
develop corrective actions.

Assistant Secretary of the Navy Comments. The Assistant Secretary did not
specifically address this recommendation. However, he did comment that the
financial data reported in MEPRS should be consistent with the accounting
standards. The Assistant Secretary agreed to assist in revising DoD Manual
6010.13M so that military treatment facility financial data complies with
accounting requirements.

Air Force Surgeon General Comments. The Surgeon General of the Air Force
concurred with the recommendation and stated that the Surgeon General of the
Air Force Financial Management Division is updating the FIAR plan.

Audit response. The management comments met the intent of the
recommendation.

       c. Provide each Military Department’s Financial Improvement Readiness
Group with military treatment facility accrual accounting and reporting
requirements that need to be integrated into the Military Department’s accounting
system improvement initiatives.

Army Medical Command Comments. The Chief of Staff of the Army Medical
Command concurred and stated that the Command is working with the TRICARE


                                   15
Management Activity and Defense Finance and Accounting Service to identify
and resolve various accounting issues.

Assistant Secretary of the Navy Comments. The Assistant Secretary did not
provide specific comments to this recommendation. He did state that the Navy
strongly concurs with the recommendations in the draft report. In addition, the
Assistant Secretary stated that the Navy is willing to assist in developing financial
management regulations for the medical operations and to revise DoD Manual
6010.13 M to improve the auditability of MEPRS information.

Air Force Surgeon General Comments. The Surgeon General of the Air Force
stated that the recommendation had already been implemented and that the
Financial Management Division provides updates to the FIAR plan.

Audit response. The Army Medical Command comments met the intent of the
recommendation. The Navy comments did not specifically address our
recommendation. Therefore, we request that the Assistant Secretary of the Navy
(Manpower and Reserve Affairs) provide additional comments addressing the
Navy medical activity FIAR plan. The Air Force response did not specifically
address the recommendation. Therefore, we request that the Surgeon General of
the Air Force provide additional comments on incorporating known weaknesses
and systemic issues into their FIAR plan.

The accuracy of the MEPRS data is contingent on the quality of the financial
feeder data from the service-specific accounting systems. For improvements to
occur and be measured, the Military Departments need to communicate their
accounting data requirements in their respective FIAR plans.

        d. In coordination with their respective Military Departments that own the
systems, work with the Defense Finance and Accounting Service to develop
periodic military treatment facility-level financial reports and establish processes
for the reconciliation of the financial reports to EAS IV summary reports.

Army Medical Command Comments. The Chief of Staff of the Army Medical
Command concurred and stated that the Command intends to achieve corporate-
level financial statements and ensure that medical service accounting
requirements are properly developed and implemented. He stated that as military
treatment facility-level financial stewardship is strengthened, the quality of
military treatment facility data will be greatly improved and supported.

Assistant Secretary of the Navy Comments. The Assistant Secretary of the
Navy concurred and stated that the target accounting systems should correct the
deficiencies.

Air Force Surgeon General Comments. The Surgeon General of the Air Force
stated that the recommendation had already been implemented because existing
financial reports allow for financial reconciliation. He stated that MTFs are
required to reconcile monthly and report on the results of the financial
reconciliation as part of the Commander’s Data Quality Statement.

Audit response. The Army and Navy comments met the intent of our
recommendation. The Surgeon General of the Air Force comments did not meet


                                     16
the intent of the recommendation since his reference is to existing budget
execution-based information, which is not adequate for financial reporting
purposes and cannot be used to fully support a financial audit of the accounting
information accumulated at the Air Force military treatment facilities.




                                    17
Appendix A. Scope and Methodology
   We evaluated the adequacy of management controls over the financial data
   processed by the MEPRS, including those Military Department-specific systems
   that provide MEPRS data. Specifically, we reviewed the status of prior reported
   material weaknesses in direct care cost data, the accounting and measurement
   methods used, and the adequacy of documentation of processes and transactions
   over the data. In addition, we reviewed ongoing initiatives to improve the
   Military Health System financial accounting processes and known data
   weaknesses. We reviewed the expense-related data processed into MEPRS.

   Prior Weaknesses. To determine the status of prior weaknesses over direct care
   data, we reviewed reports from Government Accountability Office, Department
   of Defense Office of Inspector General, and Deloitte and Touche, and compared
   them with guidance, memorandums, and Standard Operating Procedures from
   TMA/HA, the Military Department Surgeons General, and each of the three
   MTFs visited. We also reviewed Management Control Program reports to
   determine if prior reported weaknesses were included.

   Accounting, Measurement, and Recognition Methods. We evaluated the use of
   accounting, measurement, and recognition methods used by three MTFs, one
   from each Military Department. We judgmentally sampled 116 May 2005
   personnel records from three MTFs: Brooke Army Medical Center, San Diego
   Naval Medical Center, and David Grant Air Force Medical Center. The sample
   was selected from the EAS Personnel Data Report (Army), SPMS (Navy), and
   EAS-SA (Air Force). We reviewed monthly procedures to capture and record
   personnel data and controls over civilian, military, and contract labor transactions
   at each MTF. Our evaluation included:

      •   reviewing MTF-level data to determine whether generally accepted
          accrual-based accounting was used,

      •   reviewing business rules for consistent application,

      •   ensuring that evidence existed to show appropriate cut-off of accounting
          activity at the MTF-level, and

      •   ensuring standard accounting reports complied with generally accepted
          accounting principles.

   Military Health System Initiatives. We reviewed ongoing initiatives to improve
   the Military Health System financial accounting processes and known data
   weaknesses.

   We performed this audit from June 2005 through September 2006 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We did not review the computer systems
   used to process data for the Medical Expense and Performance Reporting System.



                                        18
We reviewed the hard copy documentation produced by those systems and
performed an analytical review on the data.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the financial management high-risk area.




                                    19
Appendix B. Prior Coverage
   During the last several years, The Government Accountability Office (GAO),
   Department of Defense Office of Inspector General, Army Audit Agency, and
   independent auditors have reported material weaknesses in the internal controls
   over the military treatment facilities direct care data quality. The Army Audit
   Agency reports can be obtained from https://www.aaa.army.mil/reports.htm.
   Unrestricted DoD IG reports can be accessed at
   http://www.dodig.mil/audit/reports. The reports are summarized below. In
   addition, the FY 2005 MERHCF Financial Statements, including the independent
   auditor’s report, are available at http://www.dod.mil/comptroller/cfs/fy2005.html.

GAO
   GAO/HEHS-99-39, “Medicare Subvention Demonstration, DoD Data
   Limitations May Require Adjustments and Raise Broader Concerns,” May 1999,
   available at http://www.gao.gov, recommends that the Secretary of Defense direct
   HA/TMA to improve cost and workload data quality because DoD also uses this
   data in managing its general health care operations. The effort should identify
   specific actions needed by the Assistant Secretary and the Military Departments
   to correct current cost and workload data collection and reporting problems. It
   should also ensure, by maintaining all source data and documents, that MEPRS
   can be audited.

   Other contributing factors cited include: a lack of consistent command emphasis
   on ensuring that workload and other data reports are complete, timely, and
   accurate; the paucity of business rules, standardized training, and procedural
   guidelines for clerical and professional staff; the segmentation of functions and
   staffing, as well as cultural and operational differences among the Military
   Departments and their facilities; and conversion to a data-driven managed care
   environment involving new management methods that require accurate, relevant
   data.


DoD OIG
   DoD OIG Memorandum, “Endorsement of the Management Letter on Internal
   Controls Over Financial Reporting for the FY 2005 DoD Medicare-Eligible
   Retiree Health Care Fund Financial Statements,” January 26, 2006. The DoD
   OIG endorsed the Deloitte and Touche management letter on internal controls
   over financial reporting for the FY 2005 DoD Medicare-Eligible Retiree Health
   Care Fund.


   DoD OIG Report No. D-2006-021, “Endorsement of the Qualified Opinion on
   the FY 2005 DoD Medicare-Eligible Retiree Health Care Fund Financial
   Statements,” November 8, 2005. We concurred with the qualified audit opinion
   issued by Deloitte and Touche on November 7, 2005.


                                       20
    DoD OIG Report No. D-2005-031, “Endorsement of the Management Letter on
    Internal Controls Over Financial Reporting for the FY 2004 DoD
    Medicare-Eligible Retiree Health Care Fund Financial Statements,” January 31,
    2005. The report is marked “For Official Use Only.” For Official Use Only
    Reports can be requested by filing a Freedom of Information Act request.

    DoD OIG Report No. D-2005-019, “Endorsement of the Qualified Opinion on
    the FY 2004 DoD Medicare-Eligible Retiree Health Care Fund Financial
    Statements,” November 8, 2004.


Army Audit Agency
    In “Audit of Medical Decision Support Systems, U.S. Army Medical Command,”
    Report No. AA 01-215, March 15, 2001, auditors evaluated the use of automated
    systems data available for managing healthcare costs at Army military treatment
    facilities and found that substantial amounts of data were available to
    commanders and resource managers at Army medical activities. However, key
    elements that were needed to effectively manage healthcare costs were dated,
    missing, or difficult to extract. The report stated that although managers
    generally could obtain the data, they encountered many obstacles that hindered
    ready access to current, useful, and relevant data. The auditors recommended that
    regional medical commands have their subordinate medical activities: (1) submit
    complete data for inpatient and ambulatory data records, and the Medical Expense
    Performance Reporting System in accordance with prescribed timeframes; and (2)
    identify and resolve problems that cause missed deadlines.

    In “Audit of Medical Decision Support Systems, Great Plains Regional Medical
    Command,” Report No. AA 00-311, June 22, 2000, the audit objective was to
    determine whether existing automated systems provided sufficient data for
    effective management of healthcare costs. The auditors found that access to
    useful and relevant data was impaired. The impairment occurred because:

       •   systems were not easy to use, did not communicate with each other, and
           had reliability problems;
       •   personnel were not always aware of available systems and capabilities,
           and MTF personnel did not always have the necessary training and skills
           to extract pertinent data;

       •   sources of data were scattered within military treatment facilities and
           throughout medical regions, lead agents, and DoD; and

       •   different systems with common or similar purposes were developed and
           purchased by facilities even though standard DoD systems were available
           to meet the same requirements.

    In “Audit of Medical Decision Support Systems, North Atlantic Regional Medical
    Command,” Report No. AA 00-318, July 3, 2000, the audit objective was to
    determine whether existing automated systems provided sufficient data for



                                        21
    effective management of healthcare costs. The report concluded that access to
    useful and relevant data was impaired because:

       •   systems were not easy to use, did not communicate with each other, and
           had reliability problems;

       •   MTF personnel did not always have the necessary training and skills to
           extract pertinent data, and

       •   sources of data were scattered within military treatment facilities and
           throughout medical regions, lead agents and DoD.


Independent Auditors
    The DoD OIG contracted with the independent auditing firm of Deloitte and
    Touche to audit the MERHCF, with DoD OIG oversight. Deloitte and Touche
    issued qualified audit opinions on the FY 2003, 2004, and 2005 MERHCF
    financial statements. Deloitte and Touche reported that material weaknesses had
    existed in the direct care data since FY 2003. The reported direct care
    weaknesses remain uncorrected.

    Management Letter on Internal Controls over Financial Reporting for the
    FY 2005 DoD Medicare-Eligible Retiree Health Care Fund Financial
    Statements, November 7, 2005. D&T issued a management letter that cites
    material weaknesses as well as other reportable conditions. The letter outlines
    material weaknesses regarding direct care cost data used in the compilation of the
    Fund’s financial statements and internal control deficiencies that resulted in a
    backlog of unprocessed purchase care claims. The letter also described internal
    control deficiencies that could adversely affect the Fund managers’ ability to
    record, process, and summarize financial data. The letter cites the weaknesses
    and reportable conditions in more specific detail than what was stated in the
    independent auditor’s report and makes recommendations to DoD management
    for corrective action. The independent auditor’s report contains an overview of
    the deficiencies.
    Independent Auditor’s Report, November 7, 2005. Deloitte and Touche
    audited the financial statements of the MERHCF as of September 30, 2005 and
    2004. Deloitte and Touche qualified its opinion because it was unable to obtain
    patient-level data from transaction-based accounting systems that support the
    costs of direct care provided by DoD-managed MTFs. Deloitte and Touche also
    noted deficiencies in the controls over the systems used to process the purchased
    care claims. Deloitte and Touche was unable to obtain patient level data from
    compliant, transaction-based accounting systems in support of the costs of direct
    care provided by the DoD-managed MTFs.

    Deloitte and Touche noted that the MTFs do not have compliant, transaction-
    based accounting systems and therefore cannot report the costs of an individual
    patient’s care. Deloitte and Touche reported that while activity-based costing
    techniques have been used to apply total program costs to individuals, there is
    insufficient evidence that adequate controls exist and have been implemented to


                                        22
ensure the timeliness and accuracy of the medical record coding processes at the
MTFs, a significant factor in the allocation processes.

Deloitte and Touche reported that the costs being allocated cannot be related to
specific appropriations, and there is insufficient evidence that adequate controls
exist and have been implemented to ensure the completeness, validity, recording
and cutoff of the costs reported. Consequently, Deloitte and Touche was not able
to audit the direct care component of the reported amount of the actuarial liability
for Medicare-eligible retiree benefits.




                                     23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Assistant Secretary of Defense for Health Affairs

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Surgeon General of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Surgeon General of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Surgeon General of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Chief Actuary, Office of the Actuary

Non-Defense Federal Organization
Government Accountability Office
Office of Management and Budget




                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      25
Assistant Secretary of Defense for Health Affairs
Comments




                       27
28
     Final Report
      Reference




     Recom 1.a
     revised and
     redirected




     Recom 1.b
     renumbered
     to recom 2.




29
Final Report
 Reference




Recom 2.
renumbered
as recom 3.




               30
     Final Report
      Reference




     text revised




     text revised




31
Army Medical Command Comments




                  32
33
34
Assistant Secretary of the Navy (Manpower and
Reserve Affairs) Comments




                      35
36
37
Final Report
 Reference




renumbered
as recom 2.




               38
     Final Report
      Reference




     renumbered
     as recom 3.




39
Air Force Surgeon General Comments




                    40
41
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Mark Starinsky
Ted R. Paulson
John H. Gartland
Peter G. Bliley
